<html>
<title> - A REVIEW OF FAA'S EFFORTS TO REDUCE COSTS AND ENSURE SAFETY AND EFFICIENCY THROUGH REALIGNMENT AND FACILITY CONSOLIDATION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                  A REVIEW OF FAA'S EFFORTS TO REDUCE
                      COSTS AND ENSURE SAFETY AND
                   EFFICIENCY THROUGH REALIGNMENT AND
                         FACILITY CONSOLIDATION

=======================================================================

                                (112-88)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 31, 2012

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation



                  U.S. GOVERNMENT PRINTING OFFICE
74-439                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6b0c1b042b081e181f030e071b4508040645">[email&#160;protected]</a>  


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey            Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
ANDY HARRIS, Maryland                MICHAEL E. CAPUANO, Massachusetts
ERIC A. ``RICK'' CRAWFORD, Arkansas  TIMOTHY H. BISHOP, New York
JAIME HERRERA BEUTLER, Washington    MICHAEL H. MICHAUD, Maine
FRANK C. GUINTA, New Hampshire       RUSS CARNAHAN, Missouri
RANDY HULTGREN, Illinois             GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              JASON ALTMIRE, Pennsylvania
LARRY BUCSHON, Indiana               TIMOTHY J. WALZ, Minnesota
BILLY LONG, Missouri                 HEATH SHULER, North Carolina
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         LAURA RICHARDSON, California
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
JEFFREY M. LANDRY, Louisiana         DONNA F. EDWARDS, Maryland
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma
REID J. RIBBLE, Wisconsin
CHARLES J. ``CHUCK'' FLEISCHMANN, 
    Tennessee
                                ------                                7

                        Subcommittee on Aviation

                  THOMAS E. PETRI, Wisconsin, Chairman
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       RUSS CARNAHAN, Missouri
FRANK A. LoBIONDO, New Jersey        DANIEL LIPINSKI, Illinois
SAM GRAVES, Missouri                 PETER A. DeFAZIO, Oregon
JEAN SCHMIDT, Ohio                   BOB FILNER, California
FRANK C. GUINTA, New Hampshire       EDDIE BERNICE JOHNSON, Texas
RANDY HULTGREN, Illinois             LEONARD L. BOSWELL, Iowa
CHIP CRAVAACK, Minnesota, Vice       TIM HOLDEN, Pennsylvania
    Chair                            MICHAEL E. CAPUANO, Massachusetts
BLAKE FARENTHOLD, Texas              MAZIE K. HIRONO, Hawaii
BILLY LONG, Missouri                 STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         ELEANOR HOLMES NORTON, District of 
STEVE SOUTHERLAND II, Florida            Columbia
JAMES LANKFORD, Oklahoma             NICK J. RAHALL II, West Virginia
JOHN L. MICA, Florida (Ex Officio)     (Ex Officio)
REID J. RIBBLE, Wisconsin
CHARLES J. ``CHUCK'' FLEISCHMANN, 
    Tennessee


                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY

Hon. J. David Grizzle, Chief Operating Officer, Air Traffic 
  Organization, Federal Aviation Administration..................    13
Lou E. Dixon, Principal Assistant Inspector General for Auditing 
  and Evaluation, Office of the Inspector General, U.S. 
  Department of Transportation...................................    13
Paul M. Rinaldi, President, National Air Traffic Controllers 
  Association....................................................    13

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Hon. G.K. Butterfield, of North Carolina.........................    33
Hon. Eddie Bernice Johnson, of Texas.............................    35

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Hon. J. David Grizzle............................................    37
Lou E. Dixon.....................................................    45
Paul M. Rinaldi..................................................    60

                       SUBMISSIONS FOR THE RECORD

Hon. Howard Coble, a Representative in Congress from the State of 
  North Carolina, request to submit the following into the 
  record:

        North Carolina congressional delegation \1\ letter to 
          Hon. Ray LaHood, Secretary, U.S. Department of 
          Transportation, expressing concerns about the FAA's 
          decision to move North Carolina from the Atlanta 
          Airports District Office (ADO) to the Memphis ADO, May 
          25, 2012; and Hon. LaHood's letter in reply addressing 
          the concerns, July 18, 2012............................     6
        Letter from Senator Kay R. Hagan to Hon. Ray LaHood, 
          Secretary, U.S. Department of Transportation, 
          expressing concerns about the FAA's decision to move 
          North Carolina from the Atlanta Airports District 
          Office (ADO) to the Memphis ADO, May 14, 2012..........    11
Lou E. Dixon, Principal Assistant Inspector General for Auditing 
  and Evaluation, Office of the Inspector General, U.S. 
  Department of Transportation, response to question from Hon. 
  John J. Duncan, Jr., a Representative in Congress from the 
  State of Tennessee.............................................    59

                         ADDITION TO THE RECORD

John W. Crichton, President and Chief Executive Officer, NAV 
  CANADA, letter to Hon. John L. Mica, Chairman, Committee on 
  Transportation and Infrastructure, and Hon. Thomas E. Petri, 
  Chairman, Subcommittee on Aviation, June 1, 2012...............    72

----------
\1\ North Carolina congressional delegation signatories of the 
  letter are: Senator Richard Burr, Senator Kay R. Hagan, Rep. 
  Melvin L. Watt, Rep. Mike McIntyre, Rep. Howard Coble, Rep. 
  Brad Miller, Rep. Patrick T. McHenry, Rep. Larry Kissell, Rep. 
  Walter B. Jones, Rep. Sue Wilkins Myrick, and Rep. G.K. 
  Butterfield.

  [GRAPHIC] [TIFF OMITTED] T4439.001
  
  [GRAPHIC] [TIFF OMITTED] T4439.002
  
  [GRAPHIC] [TIFF OMITTED] T4439.003
  
  [GRAPHIC] [TIFF OMITTED] T4439.004
  
  [GRAPHIC] [TIFF OMITTED] T4439.005
  
  [GRAPHIC] [TIFF OMITTED] T4439.006
  
  [GRAPHIC] [TIFF OMITTED] T4439.007
  
  [GRAPHIC] [TIFF OMITTED] T4439.008
  


                  A REVIEW OF FAA'S EFFORTS TO REDUCE
                      COSTS AND ENSURE SAFETY AND
                   EFFICIENCY THROUGH REALIGNMENT AND
                         FACILITY CONSOLIDATION

                              ----------                              


                         THURSDAY, MAY 31, 2012

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Thomas Petri 
(Chairman of the subcommittee) presiding.
    Mr. Petri. The hearing will come to order.
    And as has been noted by the familiar voice of Jimmy 
Miller, this is his last official hearing after many, many 
years, 36 years on the Hill as Air Force liaison and with the 
Science Committee and then with this committee, and he has got 
a unique arrangement. His salary is paid by both parties, so he 
can call them the way he sees them and work for all of us. I 
think there is no one here who doesn't have a story or two 
about Jimmy Miller, and he has stories about all of us and 
about a lot of other people who have served in the military and 
in leadership positions in American politics over the last 50 
years.
    And one story I think I can tell now, which he told me and 
I think it is true, Jimmy has traveled to 170 countries, and he 
has traveled with congressional delegations and military 
leaders. He has had three audiences with the Pope and numerous 
meetings at the Vatican. Well, the Pope has a Jimmy Miller, 
John Paul did anyway, someone who would help organize things 
and so on and so forth, so the two of them became very close 
friends. And when some American Congressman or Senator or other 
group of people from--especially from Washington, wanted a 
private audience with the Pope, and they didn't really no who 
this was or if it was worthwhile or not, the guy would call up 
Jimmy Miller, and he would decide if a person got a papal 
audience.
    So it pays to stay on Jimmy's good side, especially if you 
want to be right with the Church.
    Anyway, Jimmy, thank you very much for all you have done 
for me and for other members of our committee and for the 
working relationships that you had with the staff and with the 
people who make the Hill what it is.
    And best of wishes for a very happy grandfatherly 
retirement for many, many years.
    Mr. Costello. Mr. Chairman, if you would yield.
    Mr. Petri. Yes.
    Mr. Costello. Mr. Chairman, thank you.
    I can tell you that that is absolutely a true story about 
the Pope's right-hand person; Jimmy had a personal contact and 
a relationship, and I know firsthand because I called on Jimmy 
personally one time to do something for me with the Vatican. 
And he was able to do it in an orderly way and made me and my 
wife extremely happy.
    I have traveled extensively with Jimmy Miller over the 
years, and I can tell you that no one knows as many people, not 
only on Capitol Hill but around the world, than Jimmy Miller 
does. He has done a wonderful job. He is a great service to 
Members. He always puts Members first, and he is the go-to guy. 
I think that anyone, members of this committee today or in the 
past several years since he has been with the T and I 
committee, any of the witnesses who were summoned or 
volunteered to testify, they would always check in with Jimmy 
Miller to find out what was going on to get advice. And we are 
going to miss him, his service, but I suspect, in fact, on 
another committee of which I serve, I have already talked to 
them about trying to recruit Jimmy Miller as a contract 
employee so that we don't let him get entirely away from us.
    So, Jimmy, we appreciate all that you have done for us over 
the years. We hope that you do not go too far and that we 
continue to see you and continue to be able to call on you. You 
have been a great friend, and I look forward to continuing our 
friendship for many years after you leave the payroll 
permanently, but we might get you back here part time. Thank 
you.
    Mr. Petri. Mr. Coble would like to say a few words.
    Mr. Coble. Thank you, Mr. Chairman.
    You and the distinguished ranking member have pretty well 
said it.
    Jimmy, as we say in the rural South, you done good. Best 
wishes to you and Godspeed.
    Thank you, Mr. Chairman.
    Mr. Petri. Thank you.
    The subcommittee today will hear testimony on the Federal 
Aviation Administration's effort to plan for and carry out 
much-needed facility realignments and consolidations. I welcome 
the witnesses and look forward to their testimony.
    Five years ago, the subcommittee held a hearing on FAA 
facility conditions, and it certainly was a memorable one. At 
that hearing, the FAA witnesses testified that a key element of 
its transformation to NextGen air traffic control modernization 
is consolidation of its facilities. The FAA witness also noted 
that without consolidation, the FAA is tied to maintaining 
outdated facilities with outdated technology based on outdated 
1960s radar boundaries.
    As we all know, NextGen touches every aspect of the 
agency's mission and currently costs roughly a billion dollars 
per year. It is also a job creator and vitally important to 
allow the United States to compete in the global marketplace.
    At the hearing 5 years ago, the Department of 
Transportation inspector general pointed out that a major 
factor in both capital and operating costs for NextGen is the 
degree to which the agency eliminates or consolidates FAA 
facilities.
    Congress agrees with the need for FAA to address its aging, 
rundown and obsolete facilities while furthering NextGen and 
making smart investments. In fact, in the FAA Modernization and 
Reform Act signed by the President on February 14, Congress 
included Section 804, which requires the FAA to develop a 
national facilities realignment and consolidation report within 
120 days of that enactment. In accordance with Section 804, the 
FAA must work with labor and industry to develop a plan to 
transition to NextGen and to reduce capital operating 
maintenance and administrative costs of the FAA without 
adversely affecting safety. The report is to be submitted to 
Congress, and if Congress does not pass a joints resolution of 
disapproval, then the FAA must follow the recommendations 
included in the report, kind of a mini base closing 
arrangement.
    It has been pointed out to me that the FAA's facility 
consolidation and realignment effort has actually been in the 
works for decades now. Over the years, this effort has resulted 
in some successes, but overall, very little progress has been 
achieved in terms of addressing the needs of NextGen, the FAA's 
aging facilities, some of which are well past their useful life 
and the poor working conditions endured by many FAA employees. 
This hearing is intended to focus attention on this critically 
important program and effort.
    Every one is in agreement that the FAA must plan for the 
future by consolidating, realigning and closing many of the 
over 400 terminal facilities for which it is responsible. This 
not only makes sense from a budget perspective but also is an 
absolute necessity for NextGen. To this end, I look forward to 
hearing from the witnesses on the status of the FAA's facility 
consolidation and realignment plans.
    Specifically, the subcommittee is looking for a clear 
description of the FAA's implementation timeline and cost 
estimates, how the FAA is working with labor groups and 
industry stakeholders and, finally, the agreed-upon metrics for 
determining progress. Today's hearing is an opportunity for the 
FAA to refocus its efforts, seek the support of Congress, labor 
groups and other stakeholders and take full advantage of the 
opportunity provided by Section 804 in the FAA Reauthorization 
Act.
    Before we turn to the witnesses for their statements, I ask 
unanimous consent that all Members have 5 legislative days to 
revise and extend their remarks and include extraneous material 
for the record of this hearing.
    Mr. Costello. Without objection.
    Mr. Petri. Without objection, so ordered.
    I now recognize Mr. Costello for his opening statement.
    Mr. Costello. Mr. Chairman, thank you.
    And Mr. Chairman, I thank you for calling this hearing 
today. As you know, in July of 2007, I chaired an Aviation 
Subcommittee hearing to examine worker conditions at aging FAA 
facilities. At that hearing, the FAA testified that large-scale 
facility consolidation would be a key element of its plan to 
replace old facilities and transition to NextGen. Further, the 
FAA stated that consolidation would improve safety and 
efficiency and lower infrastructure costs by making new 
technologies available for controllers.
    Nevertheless, much of what we have heard 5 years ago is 
still true today. Many FAA facilities are outdated and 
deteriorating. The average age for an enroute center is 49 
years while the average age of the terminal facility is 28 
years. As both the chairman and ranking member of this 
subcommittee, I have supported legislation requiring the FAA to 
develop a plan for large-scale facility consolidation and 
realignment. I am pleased that the recently enacted FAA 
reauthorization bill requires the FAA to submit a facility 
consolidation plan to Congress.
    I look forward to hearing from Mr. Grizzle about the status 
of this plan.
    Additionally, I would continue to urge the FAA management 
to include the input of its workforce in developing 
consolidation plans as the law requires.
    Large-scale consolidations will require the movement of 
thousands of employees and their families. In many instances, 
the FAA's management will need to negotiate potentially 
contentious issues with the FAA's unions. FAA leadership should 
proactively engage the agency's workforce, build consensus and 
head off potential pitfalls and delays. Moreover, while 
consolidation can reduce long-term costs, they are expensive to 
undertake in the near term. On any large-scale capital project, 
the FAA must carefully analyze whether the benefits outweigh 
the costs to the taxpayers.
    In the past, the inspector general has identified 
consolidation efforts where FAA management made flawed 
assumptions about cost and benefits because the FAA did not 
effectively include the input of its workforce. I firmly 
believe that when the FAA management engages its workforce, it 
produces a better work product and a stronger business case for 
its actions.
    Mr. Chairman, last year, I warned that if we authorized the 
capital funding levels that were too low in the FAA bill, we 
could hamstring facility consolidation efforts. In fact, the 
FAA estimates that its required capital expenditures, including 
the cost of consolidation, will greatly exceed the funding that 
Congress provided in the FAA bill for the next few years. The 
IG will testify today that tight funding limits in the FAA 
reauthorization bill have already delayed the approval of 
construction for the first phase of the FAA's Northeast 
consolidation plan.
    Looking forward, if the funding levels in our recently 
enacted FAA bill are not adequate, then Congress must provide 
additional funding for the FAA through the appropriation 
process.
    Mr. Chairman, I look forward to hearing from the witnesses 
today and look forward to asking some questions about how the 
process is going.
    Mr. Petri. Thank you.
    Mr. Coble, do you have any opening remarks?
    Mr. Coble. Thank you, Mr. Chairman.
    Mr. Chairman, I thank you and Mr. Costello for having 
called this hearing.
    And I want to express our gratitude to our guests from the 
Federal Aviation Administration and the National Air Traffic 
Controllers for their appearance today.
    We appreciate your testimony and dialogue.
    I will not try to employ too much of the subcommittee's 
time this morning Mr. Chairman, and I have got two other 
meetings I am going to have to attend, so I will probably be in 
and out.
    But I do want to comment on a problem that is confronting 
North Carolina's aviation community. The FAA has recently 
elected to geobalance North Carolina out of the Atlanta Airport 
District Office over to the Memphis Airport District Office. My 
North Carolina colleagues and I, Democrats and Republicans 
alike, from this and other bodies, strongly oppose the FAA 
decision. The utmost respect is due the FAA and its staff. 
They, after all, make our skies safer, more accessible and are 
responsible for maintaining one of our modern transportation's 
greatest achievements.
    On the other hand, this ADO dog, in my opinion, just don't 
hunt. It takes an already proven system and changes it for 
reasons our offices have been unable to determine. In fact, 
this authorization strongly contradicts an Office of Management 
and Budget directive which instructs agencies, and I am 
paraphrasing, to spend at least 30 percent less on travel 
expenses now than in fiscal year 2010 and through fiscal year 
2016.
    I understand, Mr. Chairman, that there are no 
representations from the FAA here today who are directly 
affiliated with the GAO balancing decision, but I ask unanimous 
consent to submit a letter into the record from the North 
Carolina congressional delegation that has been sent to the FAA 
in opposition to its decision.
    [The letter follows. The letter in reply from the Secretary 
of Transportation is also included:]

[GRAPHIC] [TIFF OMITTED] T4439.009

[GRAPHIC] [TIFF OMITTED] T4439.010

[GRAPHIC] [TIFF OMITTED] T4439.011

[GRAPHIC] [TIFF OMITTED] T4439.012

    Mr. Coble. I would also ask unanimous consent, Mr. 
Chairman, to submit a list of questions to the FAA 
representatives here today and would hope that the chairman and 
ranking member would give consideration to conducting a hearing 
on this problem some time later during the summer.
    I ask unanimous consent to submit a statement on this 
matter, Mr. Chairman, from my fellow North Carolinians, Senator 
Hagan and Representative Butterfield.
    [Please refer to the hearing section entitled, ``Prepared 
Statements Submitted by Members of Congress'' for the statement 
of Representative G.K. Butterfield. The letter from Senator Kay 
R. Hagan follows:]

[GRAPHIC] [TIFF OMITTED] T4439.013

[GRAPHIC] [TIFF OMITTED] T4439.014

    Mr. Coble. And I thank the chairman and yield back.
    Mr. Petri. Without objection, your submissions will be made 
a part of the record.
    And as you know, we have had a roundtable discussion with a 
number of the concerned airport officials from North Carolina, 
and if a hearing later in the year seems advisable, we will 
work with you on that.
    Mr. Coble. I thank you for your cooperation, Mr. Chairman.
    Mr. Petri. Any other opening statements?
    If not, we will turn to the distinguished panel, consisting 
of David Grizzle, chief operating officer of the Air Traffic 
Organization at the FAA; Ms. Lou Dixon, principal assistant 
inspector general for auditing and evaluation, Office of the 
Inspector General at the Department of Transportation; and Paul 
Rinaldi, president, National Air Traffic Controllers 
Association.
    Thank you all for being here. We thank you for the effort 
that you and your associates have put into the prepared 
statements that you submitted and invite each of you to do your 
best to summarize them in approximately 5 minutes, beginning 
with Mr. Grizzle.

 TESTIMONY OF THE HONORABLE J. DAVID GRIZZLE, CHIEF OPERATING 
      OFFICER, AIR TRAFFIC ORGANIZATION, FEDERAL AVIATION 
  ADMINISTRATION; LOU E. DIXON, PRINCIPAL ASSISTANT INSPECTOR 
 GENERAL FOR AUDITING AND EVALUATION, OFFICE OF THE INSPECTOR 
    GENERAL, U.S. DEPARTMENT OF TRANSPORTATION; AND PAUL M. 
     RINALDI, PRESIDENT, NATIONAL AIR TRAFFIC CONTROLLERS 
                          ASSOCIATION

    Mr. Grizzle. Thank you, Chairman Petri, Ranking Member 
Costello, members of the subcommittee. Thank you for inviting 
me to testify before you regarding the consolidation and 
realignment of the Federal Aviation Administration's 
facilities. The FAA's ability to meet the future needs of the 
aviation system, including the full implementation of NextGen 
technologies, fundamentally relies on the agency's ability to 
optimize our facilities and workforce to serve the needs of 
those who use the National Airspace System.
    I want to say at the outset that we at the FAA view Section 
804 of the FAA Modernization and Reform Act of 2012 as an 
invaluable opportunity to obtain congressional support to move 
forward with the transformation of our air traffic control 
facilities infrastructure.
    The provision directs the FAA with input from labor and 
industry to develop consensus recommendations on a realignment 
and consolidation of FAA services and facilities and to report 
to Congress on those recommendations.
    The process is collaborative in nature and will require FAA 
to consider insights from several sources.
    While Section 804 applies to the facility consolidation and 
realignment plans for the entire FAA, the Inspector General's 
Office has a draft audit evaluating the air traffic 
organization's efforts in this area. Because of the scope of 
the ATO, its efforts make up a great majority of the agency's 
overall plans. The ATO's facility work will form the foundation 
for proceeding with the implementation of NextGen technologies 
while--very importantly--maintaining the safety and reliability 
of the infrastructure upon which we must rely until NextGen 
technologies come on line.
    We agree with the IG's assertion in the draft audit that 
FAA has not sufficiently developed the metrics necessary to 
evaluate the merits of various consolidation and realignment 
alternatives. We are working hard to determine the appropriate 
criteria for making FAA's decisions moving forward.
    The criteria we used previously focused primarily on the 
capital cost of bricks and mortar, which was relatively simple 
to apply but failed to address critical operating costs and 
issues. Contract obligations and their impact on consolidations 
or realignment proposals, the location specific differences and 
other operating costs make these larger decisions more complex.
    As we work toward developing our criteria and analytic 
tools, we will continue to seek the best information available 
to us.
    As noted in the IG audit, as recently as 2008, FAA was 
making short-term decisions about how to invest its fiscal 
resources on facilities based on the immediate need to sustain 
the operations in the NAS. As the facilities aged and required 
more and more maintenance, it became evidence that short-term 
facility-specific investments, by themselves, were not a long-
term cost-effective method of maintaining our critical 
infrastructure and could not adequately support the 
implementation of NextGen.
    The U.S. airspace is the most complex in the world. It 
accommodates not only 22 million commercial operations a year 
but also a robust general aviation community as well as 
military operations. This mix represents an extraordinary range 
of aircraft types, capabilities and missions. For several 
years, we have recognized the need for a more holistic approach 
to address the combination of aging infrastructure and 
advancing technologies, technologies which no longer require 
that controllers be located near the airspace they are 
controlling in order to safely separate aircraft.
    Because we can combine controller groups and their 
airspace, we can reduce the number of boundary handoffs and 
thus the possibility of human error.
    Working with our unions over the past 2 years, we have 
developed a strategy to address different areas of airspace 
over the contiguous 48 States. The strategy adopts a segmented 
approach, prioritizing on the basis of need and optimizing 
opportunity for the airspace and facilities in question.
    Our initial focus is on the New York area. Problems that 
develop in this airspace have consequences all across the 
country. How the consolidation or realignment is accomplished 
in this important area is something that is receiving our 
utmost attention and we expect to include a number of proposals 
affecting this airspace in the plan that we submit to Congress. 
The proposal will include consideration of the existing 
facilities, their condition, their location, the anticipated 
needs of the region, whether and where new facilities should be 
constructed and how FAA employees would be affected.
    While the FAA's segmented plan extends out for several 
decades, the plan submitted to Congress pursuant to the 
legislation will only cover the time period into the future for 
which we have reasonably reliable visibility.
    In conclusion, I want to thank the committee for inviting 
me to testify today and for affording the FAA to chance to take 
advantage of the opportunity offered by Section 804. We look 
forward to working with Congress, the IG, NATCA, and the 
industry to achieve the best possible outcome for this ongoing 
process.
    This concludes my statement and I would be happy to answer 
any questions you may have.
    Mr. Petri. Thank you.
    Ms. Dixon.
    Ms. Dixon. Thank you. Mr. Chairman, and members of the 
subcommittee.
    Thank you for inviting me to testify this morning on FAA's 
air traffic facility realignment and consolidation efforts, a 
key initiative for NextGen.
    My testimony today is based on work we are currently doing 
at the request of this subcommittee. It will focus on FAA's 
plan for large-scale realignments and consolidations, key 
challenges for executing the plan, and actions the agency needs 
to take in the near term.
    FAA's realignment and consolidation plan was formalized 
last November and calls for consolidating enroute centers and 
TRACONs into large, integrated facilities over the next two 
decades. The plan would divide the National Airspace System 
into six geographic segments that include four to five 
facilities each.
    Work would begin on a new segment every other year with all 
segments to be completed by 2034. TRACONs and enroute centers 
would be combined into one of two types of facilities--each of 
which could house over 1,200 employees--based on operational 
requirements, airspace responsibility, and geographic location. 
FAA plans to start with a new integrated facility in the New 
York-New Jersey-Philadelphia area.
    In our opinion, FAA's plan represents significant progress 
since our 2008 review when the agency was primarily focused on 
sustaining the existing infrastructure. However, FAA is in the 
early stages of planning and has delayed a final decision on 
exactly where to build the first facility until next May. The 
decision also involves determining complex operational, 
logistical, and workforce aspects of the consolidation. FAA's 
plans for future projects could change based on experiences 
with the first locations.
    Successfully implementing FAA's consolidation and 
realignment plan and mitigating future risk will require the 
agency to address a number of challenges. First, FAA must align 
previously approved construction projects with its plan. While 
the agency has suspended all but one of its terminal 
realignment and consolidation projects, it is moving ahead with 
plans to maintain or replace some of its older facilities. This 
work could overlap with projects included in its consolidation 
plan.
    Second, FAA must make key decisions related to automation 
platforms and equipment, airspace redesign, and other technical 
factors. The agency's modernization plans are based on the 
current facility set up, not consolidated or integrated 
facilities.
    FAA is just beginning to define the technical requirements 
for an integrated facility, a determination that will impact 
the agency's future modernization plans and budgets, such as 
those for ERAM.
    However, FAA has not made changes to its capital investment 
plan, and the full extent of the changes needed will not be 
known until FAA finalizes its consolidation plan.
    Third, FAA must finalize project cost estimates and funding 
sources to construct, staff, and maintain the first integrated 
facility, a critical element of a long-term effort of this 
magnitude.
    When the overall plan was approved last November, FAA 
estimated that it needed $2.3 billion to construct and equip 
the first four integrated facilities. Given current budget 
constraints, FAA is considering all sorts of financing sources, 
such as public-private partnerships.
    Finally, FAA must address workforce and community issues. 
Large-scale realignments and consolidations will require 
relocation of thousands of employees and their families. The 
agency will have to negotiate pay, training, moving expenses, 
and other issues with its unions. FAA is working closely with 
its bargaining units to gain consensus on these issues. But 
formal negotiations have not yet begun.
    In closing, Mr. Chairman, let me point out that some of 
FAA's past facility consolidations did not produce the expected 
cost savings and operational benefits. As the current 
consolidation plan continues to evolve, we believe that metrics 
to track efficiencies and cost savings will be critical. 
Measuring the success of early sites will be key to determining 
whether the agency needs to modify its plans and expectations 
for future efforts.
    By next May, we see four issues that FAA must address in 
its initial decisions: the location of the first integrated 
facility, the final cost estimates for that site, the metrics 
for measuring the success of the first locations, and the 
impact that FAA's large-scale plan will have on its other 
modernization efforts.
    This concludes my statement, Mr. Chairman. I would be happy 
to address any questions you or other members of the 
subcommittee may have.
    Mr. Petri. Thank you.
    Mr. Rinaldi.
    Mr. Rinaldi. Good morning, Mr. Chairman, Ranking Member 
Costello, distinguished members of the committee, aviation 
subcommittee, on behalf of more than 18,000 air traffic 
controllers and aviation professionals represented by NATCA, I 
would like to thank you for inviting me to testify before you 
on this important issue.
    Ranking Member Costello, I am very grateful to testify 
before you one more time. To say that you will be missed after 
this year is a complete understatement. I can't thank you 
enough for your passion and your pride in doing the right thing 
for the National Airspace System, ensuring the safety and 
efficiency of the system, and I wish you the best in your post-
Congress life.
    NACTA's position on realignments is pretty clear: We 
support realignments, but only as part of a comprehensive plan 
with a clear objective and quantifiable efficiency gains and a 
sound business case evaluating each proposal.
    The reason to realign FAA facilities would be to enhance 
operational services, provide continued or improved aviation 
safety to the National Airspace System, support and facilitate 
the modernization of the National Airspace System, address and 
mitigate concerns raised by stakeholders, and for it to be cost 
effective.
    Realignment is not an issue that is new to me. As a 
controller back in 1990, I was one of the lead project managers 
on a building called the Potomac Consolidated TRACON project. 
Back then, we looked at taking the approach controls from 
Washington Dulles, Washington National, Baltimore, Richmond and 
Andrews and putting it into one building. The agency had a 
business plan. It had a sound case. They brought in all the 
stakeholders involved, and it made sense.
    So we, as the union, worked together collaboratively with 
the agency to build a Potomac Consolidated TRACON project, 
which today is a huge success in my opinion. The process was 
not perfect, but at least the stakeholders were involved.
    Let me be clear: NATCA supports facility realignments, but 
only as part of a comprehensive plan with a clear objective and 
a sound business case. To date, unlike the Potomac project, 
many of the FAA's projects have failed to reach that level of 
scrutiny.
    Realignment is not the fiscal panacea that some believe it 
might be. In many cases, consolidating radar facilities costs 
the agency more money, not less. The IG in their own testimony 
has said that we have not, in the 1990s, have not reached the 
operational cost and efficiencies, because when you sever 
TRACONs from the tower, you increase personnel, and not taken 
into account is the increased telecommunications cost that goes 
with it.
    We should not assume that if we are going to realign 
facilities that the NAS is going to have less infrastructure. 
It actually is going to have more, because we are increasing 
the number of facilities. But there still may be very good 
reasons to do that.
    The past decade is filled with consolidations done 
incorrectly: Memphis; Orlando; Beaumont, Texas; and Pueblo, 
Colorado. In Orlando and Memphis, they severed the tower from 
the TRACON, not increasing operational efficiencies at all but 
increasing personnel costs. Orlando itself increased by 11 
people.
    In 2009, we established a collaborative joint work group 
under Administrator Randy Babbitt, and we looked at now the 
agency was moving forward with projects of consolidation. 
Ultimately, the group collaboratively studied the planned 
realignments and recommended to move forward on three. We 
wanted to stop two because they actually were using flawed 
business cases. If we are working together in collaboration, we 
can just look at what has to be done and move forward in the 
right way for the taxpayers; for the American public and for 
the flying public.
    We applaud FAA Reauthorization Section 804 that requires to 
have stakeholder involvement.
    The recommendation that NATCA would make is that we sit 
together; we work on developing a plan in a holistic way for 
the National Airspace System, that is good for the taxpayer, 
that is safe, efficient, and gives us the ability to modernize 
the system. I look forward to answering your questions, and I 
thank you for your time.
    Mr. Petri. Thank you.
    Thank you all for your testimony.
    I do have a couple of questions.
    Mr. Grizzle, could you tell the committee if the agency has 
adequate authority to transfer funds if, for example, there is 
a consolidation leading to more efficient use of personnel, do 
you have the authority to carry over the operating cost savings 
from the closure of one facility to assist in the transition 
costs for a new facility, or also the authority to retain 
proceeds from the sale of facilities that are closed down to 
help offset the costs of constructing new facilities? Is there 
adequate authority, or is this a problem?
    Mr. Grizzle. Because the transition from an old facility to 
a new facility occurs over several years, we would be able in 
the ordinary budgeting process to be able to effectuate the 
transfer of operating costs.
    The transfer of capital investment would depend on what the 
actual ownership is of the facility that is being closed versus 
the facility that is being owned.
    Mr. Petri. I understand that you are fairly far along on 
plans for a consolidation or reorganization in the New York 
region, which is a crucial kind of congestion point in the 
national system at this point.
    Could you discuss at all how you are working on that with 
various private industries, stakeholders and union and other 
concerned parties? Local governments as well.
    Mr. Grizzle. Yes. Thank you. As Ms. Dixon and Mr. Rinaldi 
have mentioned, we have developed a long-term segmented 
facility consolidation plan that would ultimately result in 
substantial facility consolidation in the 48 contiguous States.
    The first segment that we are devoting detailed attention 
to is what we call segment 1, which includes the New York area. 
We have been working with NATCA for a couple of years in two 
components of that plan, part of it is airspace redesign, and 
then closely related to that is design of a facility.
    We are at the point now where we have a well developed 
concept of the facility, but we are now at the stage where we 
must begin to move to site-specific decisions. We have to 
decide where the site will be located, and that will require 
significant employee and management input as well as input from 
local communities, Members of Congress and other industry 
stakeholders. We are just now at the process of having our 
concept sufficiently definitive that we can begin that 
additional, those additional steps of outreach.
    Mr. Petri. Thank you.
    I want to compliment both you and NATCA for your efforts to 
communicate and work through this process, which can be 
unsettling for employees and individual situations, and in that 
connection, in my own area, I am familiar with a number of 
organizations, large companies that have gone through massive 
changes in the way they were operating internally in order to 
be more competitive and efficient. And while years ago, those 
changes might have been resisted across the board by organized 
labor, more recently United Auto Workers, for example, and 
others have supported those efforts because they realize to 
maintain high-paying jobs, they are going to have to increase 
productivity, and but nonetheless there has been a tension 
between the national union and locals in some cases.
    Could you discuss how you are working that through, Mr. 
Rinaldi, or if that is an issue? I am sure it is to some extent 
a fact.
    Mr. Rinaldi. Thank you, Mr. Chairman, that is an excellent 
question.
    If you go to any facility across the country and you say, 
well, we are going to consolidate you on such-and-such date and 
you are going to move across State boundaries, across the 
State, across the town, obviously, change is a concern for 
everybody and resistance sets in.
    But if you actually go with a comprehensive plan and say 
this is the game plan, we are going to start phasing you in. We 
are going to build the building at this location. Here are the 
schools. Here are the job opportunities for your spouses, and 
here is the median cost of housing. If you have a comprehensive 
plan that you actually bring to the employees, I think change 
is not that resistant, and they will have the ability to plan 
their future as opposed to the uncertainty. And I think that is 
where we have to be better with a comprehensive plan to bring 
to the employees at the local level so that we do have that 
buy-in.
    Mr. Petri. Thank you.
    Mr. Costello.
    Mr. Costello. Thank you, Mr. Chairman.
    To follow up on your comment, Mr. Rinaldi, what you are 
saying is for a smooth transition, what you have to have is a 
plan that was not developed by just the FAA, it needs to be 
developed by the controllers, by the stakeholders and everyone 
involved from day 1, is that correct?
    Mr. Rinaldi. That would be correct, yes.
    Mr. Costello. Let me ask you, Ms. Dixon, in the 2010 
analysis of the Boise consolidation, the IG made 
recommendations afterwards that the FAA should, in fact, make 
certain that they have direct communication input with the 
employees, controllers and others.
    Tell me what you uncovered in the Boise consolidation that 
made the IG make these recommendations?
    Ms. Dixon. Thank you.
    Congressman Costello, we found that there was a lack of 
communication. There was also a lack of transparency. The FAA 
had developed multiple plans over the course of a few years and 
did not continually communicate the changes that they made to 
those plans to the local officials, the local workforce, or to, 
I think, some of the national workforce members.
    In 2005, they had decided that they were going to co-locate 
the Boise and Salt Lake City facilities. Subsequently, in 2009, 
they decided that they would go for a consolidation, but they 
didn't communicate these changes to the workforce and to the 
local community. So it caused some unnecessary questions and 
concerns about what exactly what was going on.
    Mr. Costello. Let me ask you about the funding levels in 
the reauthorization bill.
    Do you believe that they are adequate to carry out the 
FAA's proposed consolidation plan?
    Ms. Dixon. We are aware that FAA has identified some 
funding shortfalls. They do not yet have all of the funding in 
place that they will need to construct even the first segment. 
However, as I mentioned, they are looking at some other 
alternative financing options, but they have not yet really 
finalized all the cost estimates. So before they can really 
decide how to fund it or where to obtain the funding, they will 
need to definitize the cost estimates, but it will be critical 
that they continue to communicate exactly how much money they 
will need and when they will need it.
    Mr. Costello. You state in your testimony that the tight 
funding levels in the authorization bill led to delayed 
approval of the construction of the first phase of the 
Northeast facility consolidation. Is that an indication of what 
we are looking at down the road in the future? I mean, we are 
now, we already have a delay because of a lack of funding level 
for the Northeast consolidation. Is that an indication of what 
we are going to see from here on out?
    Ms. Dixon. Congressman, it is certainly possible that it is 
an indicator. The funding environment obviously is very tight 
right now. FAA recognizes that, and they are looking at other 
options, but certainly that is a potential indicator.
    Mr. Costello. Mr. Grizzle, you have heard me state in the 
past more times than you like I am sure that if it comes to 
negotiating contracts, if it comes to consolidation, whatever 
it may be, that my opinion is that in order for the best 
outcome, you have to have input from both sides, that the FAA 
just can't develop a policy and say to the stakeholders, this 
is the way it is going to be, that there has to be input. You 
know, as you have indicated in your testimony and it has been 
mentioned that Section 804 of the reauthorization bill in fact 
requires the FAA now to engage and develop consensus with the 
stakeholders.
    These recommendations, which you have to report back to 
Congress as mandated in the bill, are due in mid June, yet in 
Mr. Rinaldi's testimony, he states that NATCA has not been 
involved in any discussion efforts to produce these 
recommendations.
    So my question to you is, have you reached out as a result 
of the reauthorization bill or that Congress has mandated a 
report back from the FAA to the Congress as to how you are 
going to involve the stakeholders, the controllers and others? 
Have you reached out to NATCA and other stakeholders to ask for 
their input?
    Mr. Grizzle. Sir, I believe that we need more than just 
input. I think that true collaboration is more than simply 
giving another party an opportunity to comment on a plan that 
has already been devised by you. And so we are engaging with 
NATCA now and with our other unions and subsequently with other 
community stakeholders to have true collaboration, which will 
involve them in actually compiling the decisions and not simply 
commenting on a decision that we have already made.
    Mr. Costello. Well, specifically, tell me, what has the FAA 
done with NATCA and the other union in order to begin the 
process?
    Mr. Grizzle. NATCA has been very involved in the 
conceptualization of the airspace redesign and the design of 
the New York facility, which will be the first implementation 
of our long-term consolidation strategy. We are only now at the 
point, as I said earlier, of beginning to definitize the site-
specific decisions that apply to that initial implementation.
    Mr. Costello. But my question specifically is not about the 
New York airspace. It is about how you are going to go about 
with the consolidation plan for the entire system and what the 
procedures will be as far as input from and input from all of 
the stakeholders.
    Have you developed that plan? And if not, when did you 
intend to sit down with the stakeholders since you are to 
report to Congress in just about 3 weeks?
    Mr. Grizzle. The plan that Mr. Rinaldi and I have discussed 
is that we would devise a set of criteria, which would guide 
our consolidation decisions. That would be a set that we and 
NATCA would agree are the right ones to apply to all of 
consolidation decisions.
    Mr. Costello. And when you sat down with Mr. Rinaldi, which 
I will ask him to respond as well, how long ago was that?
    Mr. Grizzle. We discussed this maybe a month ago.
    Mr. Costello. Maybe a month ago. But not before that?
    Mr. Grizzle. Not--not--the decision, not in terms of 
devising the criteria, that is correct.
    Mr. Costello. Mr. Rinaldi, I wonder if you would respond.
    Mr. Rinaldi. I would be happy to, sir. Roughly 10 days 
after that very authorization was signed by the President, 
February 14, NATCA sat down and developed a scoping document of 
what we would like to see out of Section 804. And we submitted 
at a lower level where a working group would sit there and work 
that. It seemed to be going nowhere. It was about a month after 
that we had initial conservations, Executive Vice President 
Gilbert and myself, David Grizzle and Deputy COO Rick Ducharme 
had a brief conversation and said, we need to get moving on 
this because our report is due, and they agreed. Their intent 
was not to stall by any stretch of the imagination.
    We then submitted what we thought would be a good starting 
point that we could work on. And it wasn't until about a month 
after that when we actually had the conversations that this is 
a good place to start. And Mr. Grizzle is exactly right; we had 
a conversation in which we talked about really developing real 
metrics of what we are going to measure and how we are going to 
analyze the real cost of doing realignments. And it was 
probably last week or the week before where we set a meeting 
for June 5 to have our first joint meeting to start working on 
this game plan.
    Mr. Costello. So just so I get this right, when you 
determined that you would sit down, both of you, on June 5, how 
long ago was that?
    Mr. Rinaldi. About 10 days ago, I guess, yes.
    Mr. Costello. About the time when this hearing was called, 
is that correct?
    Mr. Rinaldi. Pretty close yes.
    Mr. Costello. So you knew--the FAA knew they were coming in 
here for this hearing and, it seems to me, said, we better 
reach out because the questions are going to be asked, but they 
didn't reach out and talk to you before that?
    Mr. Rinaldi. We had broad conversations, but as far as 
putting some meat on the bones to develop a report, we had not 
had those conversations.
    Mr. Costello. Mr. Chairman, I have already taken too much 
time, but I think it is another example of how when this 
subcommittee provides oversight hearings and holds the FAA's 
feet to the fire, that they act, and I suspect that a June 5 
date would not have been set had you not scheduled this hearing 
today that we would have ended up missing the, either not 
having a report to the Congress by the middle of June or having 
a report without direct input in collaboration with not only 
NATCA but the other union and other stakeholders.
    So I would just make that point and again compliment you 
for holding this hearing, and it is another example of when 
this subcommittee acts, then the FAA acts. And when we do not 
hold their feet to the fire, they go on to other things; when 
we schedule hearings, they say we had better get our act 
together and get moving on this because the subcommittee is 
going to be asking us questions.
    Mr. Petri. So we will be happy to work with you on 
strategically organizing hearings to get all these things 
moving.
    Mr. LoBiondo, I apologize. Earlier, I note you had a short 
opening statement, and I didn't realize that, and anyway the 
floor is yours.
    Mr. LoBiondo. Thank you.
    Thank you, Mr. Chairman. I just was going to briefly say 
that I am happy to see the positive results of the workforce 
and the FAA management working together. This is clearly 
something that we have to do, and I know the FAA and many 
front-line controllers are working on dozens of modernization 
projects at the tech center, which is my district. I have a 
very keen interest in this because all of the validation work 
will come through that tech center.
    And I want to say to the men and women of that tech center, 
a huge thank you for their dedication to excellence and each 
and every day reaching out and going beyond above and beyond 
the call of duty.
    I think their presence is helping to ensure these projects 
are on time and on budget, which are both extremely important 
as we move through this, and I am confident that their 
continued inclusions will benefit the flying public and the 
American taxpayer. So NextGen is a huge undertaking for the 
country, and I hope we can keep on track, and I appreciate what 
you have done on this so far and certainly thanks to our panel 
for being here.
    I know, Mr. Grizzle, we have touched on some of these 
things, but I am not sure if we touched on, is there a national 
facilities plan or an FAA organization that is working on an 
overall national facilities plan?
    Mr. Grizzle. Yes, sir, there is. It is part of the 
organization within the air traffic organization that is 
responsible for all facilities decisions.
    Mr. LoBiondo. OK, and does the FAA have an estimate of what 
calendar year the cost sustaining and maintaining the old 
facilities becomes more expensive than creating the new ones?
    Mr. Grizzle. We currently expend more on maintaining old 
facilities than building new ones.
    Mr. LoBiondo. The other questions that I was going to ask 
were already asked by the previous Members, so, Mr. Chairman, I 
thank you and thank the panel once again.
    Mr. Petri. Thank you.
    Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman.
    I am a bit puzzled and concerned here. We are going to 
develop a comprehensive, long-term plan, which is going to 
direct billions of dollars of invest, reinvestment, 
reconfiguration, affect thousands of people and their lives, 
affect the critical airspace. It was mandated by Congress. It 
is due in 2 weeks. And you were also mandated to work in a 
cooperative and coordinated fashion with the people who 
actually provide the service, the air traffic controllers and 
other unions involved in maintenance and those sorts of things, 
and yet the first time you are going to sit down and have a 
comprehensive scoping discussion or whatever it is going to be 
is going to be 9 days before the report is due.
    Is there a draft report already done that you are going to 
present to them at that point for comment? Or you are going to 
write the report beginning on the 5th of June and have it done 
by the 9th?
    Mr. Grizzle. Sir, as Ms. Dixon has said, these are 
extremely complicated decisions, and our intention is to 
develop a plan that would go out 5 to 8 years.
    Mr. DeFazio. Is that what it meant when you said--there is 
some bizarre word you used--``reasonably reliable visibility'' 
for the time period? Is that what you mean?
    Mr. Grizzle. Yes.
    Mr. DeFazio. It would have been better if you had said 5 to 
8 years, because I really don't know what ``reasonably reliable 
visibility'' meant. OK.
    Mr. Grizzle. And so the plan that we intend to submit to 
Congress will go out to 5 to 8 years, will be definitive 5 to 8 
years, and we are very much focused on making accurate 
decisions, even if those decisions take longer to make than 
what we would have liked.
    Mr. DeFazio. Meaning--OK, that means we aren't going to 
have a comprehensive--you are not going to present a 
comprehensive plan for 5 to 8 years on the 14th because you 
just said you wanted to be accurate and et cetera.
    Mr. Grizzle. We believe it is very important that the plan 
that we submit to Congress be one that we are confident can be 
executed based on the input of the union and other stakeholders 
who we involve in the decisionmaking process.
    Mr. DeFazio. Right because we have had some problems in the 
past; it seemed kind of like you were throwing darts at the 
board and deciding you are going to consolidate here and you 
are going to separate here and you are going to do that. And 
the last time you sat down with the employees and talked about 
this, I actually poked a lot of holes in your analysis in your 
business case. And you had some independent reviews that did 
the same. And then the GAO did the same. Have you developed all 
new criteria since then and something that we can, that is 
transparent that we can understand on how you are moving 
forward with these decisions?
    Mr. Grizzle. We are in the process of developing that 
decisional structure with NATCA. The problem----
    Mr. DeFazio. Or you are going to be in that process 
starting on the 5th for a report due on the 9th?
    Mr. Grizzle. The problem with our prior analyses were that 
they were overwhelmingly capital cost-centric. Decisions that 
are made solely on the basis of relative capital cost can in 
fact be negative NPV decisions because they don't----
    Mr. DeFazio. Negative what?
    Mr. Grizzle. Net present value decisions because they do 
not accurately consider the disparate costs of operating two 
different facilities. If we don't restructure the airspace and 
change the way we actually control that airspace when we move 
it to a new facility, we, in fact, will have done ourselves no 
benefit from a cost-benefit analysis.
    Mr. DeFazio. I understand that. I have been on this 
committee 26 years, and as I have said many times, there is 
only one agency worse at acquisition and other sorts of 
decisions than the Pentagon, and that would be the FAA.
    Now let's get to it here. Come on. We are going to have 
something comprehensive 9 days after you sit down for the first 
time with the people you have just identified as the principal 
potential cost factor in this, which is those who actually do 
the work, versus looking at what buildings are leaking or need 
replacing and those sorts of things; you are going to do all 
this on a 9-day period? Don't you think you need to ask for an 
extension here?
    Mr. Grizzle. We are certainly not going to present an 
incomplete plan to Congress.
    Mr. DeFazio. OK. I am not concerned about the deadline. I 
am concerned about the process and getting a good plan that is 
better than that the last sort of random plan that didn't work 
so well.
    Mr. Grizzle. We share that concern very much because we 
cannot make right decisions without including all of the people 
who will be affected by those decisions.
    Mr. DeFazio. OK, and Mr. Rinaldi, since your organization 
is sort of the major focus of the new concerns of the FAA, 
which go to how it affects labor, labor costs and operating 
costs, do you feel that--I am a bit bemused by this process 
that you are getting into the room and the major discussion is 
9 days before the report is due. Do you feel they are really 
committed to work with you on this?
    Mr. Rinaldi. I believe the higher up leadership at the FAA, 
David Grizzle and Michael Huerta, are absolutely, positively 
committed to collaboration. Our frustration kind of develops a 
couple levels down, when you actually sit at the table and try 
to work on business cases and try to develop good criteria for 
how to move forward, and it seems that there are a couple of 
pieces of paper that are always missing from the table. It 
doesn't seem to be forthright, and you are making decisions 
without accurate information.
    So my frustration comes at that level, not at the higher 
level with David Grizzle and with Michael Huerta.
    That said, I am concerned with developing a comprehensive 
plan on something that is as complicated as consolidating 
facilities and realigning facilities in the National Airspace 
System, that 9 days is clearly not enough. Given everybody's 
busy schedules, certainly 9 days is, I don't think, enough, but 
it is certainly a start. We could sit down and look at 
enhancing the operational services, providing improved safety, 
modernizing these systems, working in state-of-the-art 
facilities, addressing the stakeholders' concerns and really 
looking at the real cost. Because if you take a TRACON from a 
tower and you move it across the country, you are still leaving 
that tower behind that FAA still has to operate, including the 
cost and the personnel.
    So consolidations don't decrease the spending of the FAA; 
they actually increase it, specifically regarding personnel, 
and in many cases, you are adding buildings to the National 
Airspace System infrastructure.
    So I have major concerns.
    Mr. DeFazio. Mr. Chairman, I would reflect--I am pleased to 
hear that Mr. Grizzle and others higher up are working 
cooperatively with NATCA and others who are most knowledgeable 
about many of the concerns. But I am really concerned about 
pressure they might feel, the agency might feel, because of the 
arbitrary deadline. And it is clear to me that between the 5th 
and the 9th, we can't have something that would be a long-term 
comprehensive work product that addresses all of the 
deficiencies and the past planning efforts and consolidations. 
And I don't know whether the committee might want to consider 
somehow addressing that.
    Thank you, Mr. Chairman.
    Mr. Petri. Thank you, Mr. DeFazio.
    Mr. Duncan.
    Mr. Duncan. Thank you very much, Mr. Chairman.
    In the very detailed pages of the briefing paper that we 
received is this interesting quote from Bruce Johnson, the FAA 
vice president of terminal services, who testified before this 
subcommittee almost 5 years ago. He said, ``A key element of 
the FAA's transformation into NextGen is consolidation of our 
facilities. The number and specific locations of many existing 
FAA facilities were determined by the capabilities and 
limitations of 1960s technology. In the subsequent four 
decades, the available technology has vastly improved, 
rendering the long-existing pattern of FAA facilities no longer 
the best configuration. Without consolidation, the FAA is tied 
to maintaining outdated facilities and outdated technology 
based on outdated 1960s radar boundaries. Further consolidation 
lowers infrastructure costs and helps improve safety and 
efficiency by making new technologies available for 
controllers. These savings and improvements mean fewer air 
traffic delays and lower costs for air travelers.''
    Now that is a very interesting summary given to this 
subcommittee 5 years ago. However, when I go further, it says, 
of the consolidations identified in 2010, it says, as of May 
2012, all further consolidations are on hold. And then it says, 
two have been completed, Dayton to Columbus, Reno to northern 
California. But then it says, West Palm Beach to Miami, 
canceled. Abilene to Dallas/Fort Worth, continued. And then 
three others: Muskegon, Grand Rapids to Kalamazoo, deferred and 
on hold. Mansfield, Youngstown, Toledo, Akron to Cleveland, 
deferred and on hold. Champaign to Chicago, deferred and on 
hold.
    It looks, to me and I think almost everyone else, that very 
little progress has been made. And what I am wondering about, 
Mr. Grizzle and Ms. Dixon, if this subcommittee was to hold 
this same type of hearing 5 years from now, would we hear the 
same type of testimony? Do you honestly, deep down inside feel 
that there would be more progress? Or is this just such a 
difficult, almost impossible task that we are not going to get 
anywhere basically? Because we haven't made much progress in 
the last 5 years.
    Mr. Grizzle. I don't want to underestimate the difficulty 
of the task. As I have said, if we merely consolidate 
facilities without restructuring the airspace and altering the 
cultures of the constituent groups that come into the newly 
consolidated space, we may very well set ourselves back. We 
will have a larger facility, but it will be operating at higher 
costs than what the disaggregated facilities were previously 
operated at.
    We have not been able to do as thorough analyses of these 
consolidations in the past as we need to be able to do. I 
believe that in the next 5 to 8 years, you will, in fact, see 
progress, but it will be progress that is based on decisions 
that are made individually, without a bias in favor or against 
consolidation of any individual facility when we began to 
evaluate it.
    Mr. Duncan. But do you agree with that lengthy quote that I 
read from Mr. Johnson that he said all these good things that 
consolidation could lead to? Was he exaggerating? Or was he 
wrong?
    Mr. Grizzle. Consolidation is certainly a major part of our 
facility plan going forward. But still, each consolidation 
decision must be made facility by facility because some 
facilities will only increase our costs by being consolidated 
into a larger and more expensive facility.
    Mr. Duncan. Ms. Dixon.
    Ms. Dixon. Congressman Duncan, we do believe that FAA has 
made a great deal of progress since our 2008 review on this 
issue in developing the plan. However, there are a number of 
decisions that have yet to be made on cost, on location, on 
workforce, the type of equipage, and those kinds of things. And 
they are very complex decisions, as Mr. Grizzle said. This is 
also a huge undertaking. So it will take a lot. We can't really 
say what will happen in 5 years. But according to the plan, by 
that time, they should be well on their way with segment 1.
    Mr. Duncan. Well, let me ask you this: In regard--not only 
to consolidations. But in regard to other things as well, does 
the FAA have any type of incentive or bonus-type program for 
employees who come up with ways to reduce cost or save money?
    Ms. Dixon. I am not aware of that, Congressman. We have 
never looked into that issue. So I really can't say. I would be 
happy to get back to you with an answer.
    Mr. Duncan. All right. Mr. Grizzle?
    Mr. Grizzle. We implemented Department of Transportation-
wide a facility called Idea Hub which is intended to stimulate 
cost-saving ideas, among other good ideas. And although they 
are not uniformly attached with a bonus, it would not be 
unlikely that if an employee came forward with an innovative 
cost-saving idea, that they would receive a cash award under 
the existing program that we have for awarding performance by 
employees that is above and beyond the call of duty.
    Mr. Duncan. I understand that on another thing that the one 
roof/one pay policy has resulted in some pretty ridiculous 
things happening. Is that still the policy of the FAA? Or is it 
under review or being changed in any way?
    Mr. Grizzle. Our current contract with NATCA provides that 
all controllers working in a particular facility be covered by 
the pay scale that applies to that particular facility. This is 
one of the reasons that when we consolidate facilities, we must 
do a more thorough job than we have in the past of actually 
redesigning the airspace and the way the work is done so that 
we don't just increase our controller costs by consolidating 
the airspace in--or the work, rather, for the airspace in a 
higher level facility.
    Mr. Duncan. Is it true that that policy has resulted in 
some controllers receiving much, much higher pay for much less 
work?
    Mr. Grizzle. They work in the same fashion that they did 
previously, but they are doing the same work in some cases at a 
higher pay level than what they were in the preconsolidated 
facility.
    Mr. Duncan. All right. Thank you very much.
    Mr. Petri. Mr. Hultgren.
    Mr. Hultgren. Thank you, Mr. Chairman. Thank you all for 
being here.
    I have a couple of questions.
    Mr. Rinaldi, last week I took a tour of the enroute center 
in Chicago, which as you know handles all the high-altitude air 
traffic over Illinois and much of the Great Lakes region. I 
learned a lot about ERAM, the new automation platform that is 
being installed at the facility and other enroute facilities 
across the country. It is the En Route Automation 
Modernization. I was surprised to learn that the Chicago center 
will have the system installed ahead of schedule and possibly 
under budget, due mainly to the high level of collaboration 
between controllers, management, and the facility. And as the 
president of the controllers union, I wonder what your thoughts 
are on that, how it is going, and also to see other ways that 
we could model after this collaboration across the system.
    Mr. Rinaldi. Thank you for the question, sir.
    ERAM is a very important project. It is actually--to steal 
David Grizzle's line--it is the chassis on which we are going 
to bolt on many of the new technologies for NextGen, which is 
living proof that you don't need to build a new building to do 
NextGen. You actually can put ERAM into the current buildings.
    Collaboration in a lot of facilities is going very well. In 
some facilities, not so well, and we are addressing them at the 
higher level and trying to mentor and give them some interest-
based collaboration tools so they can work together at the 
lower level. And we believe--David Grizzle and myself--that 
once we get the local levels working, as we have in the Chicago 
tower and center and TRACON in that area, everyone seems to be 
working on the same page. It is better for everybody. It saves 
money for the taxpayers; and it runs a seamless operation, a 
safe operation.
    Mr. Hultgren. Yeah. I was really struck with, again, a 
facility that I think they said was 50 years old, the building, 
and yet cutting edge, a real positive feel as I went in there. 
I was very impressed just with the work that was going on but 
also the incredible collaboration between all the parties. I 
really do think that it is a model of how it should be run.
    Mr. Grizzle, I wonder, any potential facility consolidation 
should certainly take into account user and public input. I 
wondered how the FAA will ensure the user community and public 
have that opportunity to be heard. And I wonder if you could 
just walk through the process for us of how that will happen.
    Mr. Grizzle. Sure. The reality about collaboration that is 
frequently missed is that collaboration requires that your 
planning horizon be enlarged. You can't do collaboration 
quickly. And collaboration most frequently fails because 
adequate time for collaborating has not been provided in your 
process. So as we are working through our planning process for 
doing consolidations, we are making sure that we create this 
time for collaboration with the different stakeholders that you 
mentioned. So an important part of that will not only be giving 
them notice of our tentative decision but then giving them an 
opportunity to be able to compile their insights about that 
decision, to receive them, and then for them to hear what our 
response will be. And so it will elongate the total time that 
it will take us to make these decisions. But again, 
collaboration takes time.
    Mr. Hultgren. And I am sure the fact of CRs and kicking FAA 
authorizations down the road 20-some times doesn't help in that 
predictability of timing. So we have got to do our part up here 
I know as well.
    I have heard some concerns from some stakeholders, Mr. 
Grizzle, that the FAA has conducted partial cost analyses with 
a bias towards consolidation; thereby casting doubt on the 
objectivity of the FAA's decision, Boise TRACON consolidation, 
for example. The inspector general has echoed many of these 
concerns. Will the FAA complete consolidations of this type 
without a transparent accounting? Or will the transparent 
accounting be there?
    Mr. Grizzle. As I said earlier, we are currently looking at 
consolidations without a bias in favor or against 
consolidation. We believe that in many instances, it is exactly 
the right thing to do for the airspace and for the economics; 
and in other cases, it is not. And we intend to look at each 
decision individually.
    I think more importantly, we are going to do a far more 
thorough job of retrospectively looking at the consolidations 
that we do complete to assure that they have achieved the 
objectives we set out for them. We are going to see, did we 
bring them in on schedule? Did we bring them in on budget, with 
particular attention to transition expenses which tells you 
whether the consolidation you did was done cost effectively. 
Have you achieved the operating costs that you expected to 
achieve? Have you, in fact, produced a more efficient airspace? 
And finally, what is your employee satisfaction?
    Mr. Hultgren. I see my time has run out. Thank you very 
much. I yield back.
    Mr. Petri. Thank you.
    Mr. Lankford.
    Mr. Lankford. Thank you. I just have a couple of quick 
questions. Thanks for being here as well.
    Mr. Grizzle, talk to me a little bit about--there is this 
transition point here between sustaining old facilities and new 
facilities coming online. This is the challenge most people 
have with an automobile of, how many years do I use this 
automobile before it collapses, and at what point can I sell it 
and get a different one? How are you guessing that out with 
some of our facilities right now in that transition between 
older facilities and what it costs to just sustain them and 
keep them up, versus building new? And how do we handle that 
transition?
    Ms. Dixon, I am coming back to you on the idea on that same 
thing as well.
    Mr. Grizzle. Your analogy I think is perfectly apt. And 
that is the reason that we are approaching these decisions on a 
facility-by-facility basis. Because in addition to the decision 
about whether you can afford to continue the upkeep of your 
car, you have got sort of the relative cost of operating the 
old car versus the new car. And so we are attempting and we are 
going to, with each of our consolidation decisions, decide, 
what will it cost to build a new facility or to consolidate 
into an expanded facility versus the cost of maintaining it?
    Mr. Lankford. How is that decision being made? Who is 
making that decision? How is that decision being made? Because 
obviously those are difficult numbers to get your head around.
    Mr. Grizzle. They are very difficult.
    The analysis, in terms of the actual computation, will be 
done by members of the FAA staff but in collaboration with a 
broader union group that will in a sense make sure that we are 
getting all the cost elements in.
    Mr. Lankford. OK. Ms. Dixon, obviously those are 
challenging things when you start dealing with transitions on 
it and people and process on that; ideas on how to be able to 
evaluate that or suggestions that you would make that are 
beyond even what you have written in your report.
    Ms. Dixon. Congressman, we believe strongly that the key 
will be developing good metrics and continually monitoring the 
successes or challenges as they occur when they are going about 
these consolidations. It will be critical that once they get 
the first facility completed, that they are able to look at a 
few areas to see whether they have achieved the cost savings, 
for example, and whether they have achieved the operational 
efficiencies that they had wanted to get out of this effort, as 
well as the workforce efficiencies, because part of the goal is 
to get productivity up. So we think that the metrics will be 
critical.
    Mr. Lankford. So you are talking about trying to go slow to 
a few facilities initially, get it right, and then advance on 
at a larger scale from there?
    Ms. Dixon. Yes, sir. And that is actually consistent with 
FAA's plan. Their intent is to build the New York facility 
first and take a close look at all of the things that happened 
with that construction and to determine whether they need to 
make changes going forward.
    Mr. Lankford. OK. Is there additional legislative authority 
needed in this? As far as shutting down facilities and closing 
down--I know closing down any facility, transferring, changing, 
building becomes a political football in this process. What 
else is needed at this point to be successful?
    Ms. Dixon. I would say the funding is probably critical.
    Mr. Lankford. There is an answer I haven't heard in a long 
time in Congress.
    Ms. Dixon. Well, FAA has indicated that in order to start 
the construction on even the first phase, they need all the 
funding in place.
    Mr. Lankford. OK.
    Ms. Dixon. So it is critical that they get that. But it is 
also critical that they know how much they need and when they 
will need it. So that is a critical issue for them. But 
determining all of the things that go along with the 
consolidation are certainly critical to that part. They have 
got to figure out what equipment they want to put into the 
buildings and how many people will go into the buildings. A 
number of decisions like that are going to drive the cost.
    Mr. Lankford. OK. Mr. Grizzle, can you make any comment on 
that, any other legislative authority that you know if that is 
needed?
    Mr. Grizzle. We have adequate legislative authority. We 
need stability of funding.
    Mr. Lankford. OK. Mr. Rinaldi, would you like to make a 
comment on that at all?
    Mr. Rinaldi. I would like to make a comment just to 
recognize that in certain situations, you are not getting rid 
of that car. You are actually maintaining it and giving it to 
your child. Because if we take the approach control out of 
Oklahoma City and move it to Dallas/Fort Worth----
    Mr. Lankford. Which would be a bad idea.
    Mr. Rinaldi. It would be a bad idea. I would agree with you 
there.
    But if we did that, you would still leave a facility, a 
tower behind that had to run the tower operations in the 
Oklahoma City airport. So you would still have to maintain that 
facility. If it had a leaking roof before you did that move, it 
would still have a leaking roof. But in some situations, you 
are closing facilities. Like in the New York project that we 
are looking at, you would take two buildings--New York TRACON 
and New York Center--merge them into one. You would get rid of 
two buildings and have one building. So in certain situations, 
it makes complete sense; and in others, you are keeping that 
car for your child.
    Mr. Lankford. OK. Thank you. I yield back.
    Mr. Petri. Thank you.
    We were talking about looking at things from the point of 
view of the FAA and its desire to reorganize and looking at 
things from the point of view of the employees affected. And 
naturally, they are concerned about the location of their job 
and working conditions and all the rest.
    Are we also consulting with the customers or the people the 
system is designed to serve; that is to say, the airlines or 
the traveling public as they experience traveling through the 
services of various airlines who use the system?
    I have been impressed to visit some of these different 
airline operations and discover that they each have their own 
air traffic control system, which is nationwide that I guess is 
usually out of one facility or maybe two, where they are in 
some cases keeping track of thousands of flights and many 
details and loading and unloading--it is amazing--operating 
weather and compliance with different requirements of the 
Federal Government, that they can't be outside the gate for 
more than a half--
    So they may have some lessons on how to--or does it make 
any difference? I mean is the cost structure of the economy 
affected by any of this? Will it make airlines more or less 
expensive? I mean, what I am trying to say is, what we have 
been talking about is one piece of it, but at the end of the 
day, all this exists to serve the American public and the 
economy. And the industry is sort of a proxy for that. And they 
have a lot of experience. They are knowledgeable customers. So 
will they be consulted as well? Or are there ideas there where 
we can achieve efficiencies that will serve us all well?
    Mr. Grizzle. The airlines are principally interested in the 
design of the airspace. That is where their own efficiency is 
impacted most significantly. And in that regard, they are 
integrally involved in not only the large-scale airspace 
redesigns, like we have completed with New York, but in the 
sort of smaller, more incremental airspace changes that we are 
making regularly throughout the system. In fact, we can't even 
make those design changes without their involvement because we 
frequently need them to run the proposed routes on their 
simulators. So they are integrally involved in the airspace 
redesigns, which is a part of facility consolidation, and they 
have been for quite a while. They are essential to the process.
    Mr. Petri. Thank you.
    Mr. Costello at this time.
    Mr. Costello. Thank you, Mr. Chairman. I really don't have 
any other questions. But I would like to say, one, given the 
fact that my understanding is that the NextGen Facility Special 
Program Management Office was established on September 1, 2010, 
it is disappointing to hear that we do not have a metrics, as 
Ms. Dixon and others pointed out, to determine how we are going 
to go forward with consolidation and determine which 
facilities, where it makes sense to continue to operate versus 
to consolidate and build new facilities.
    So I would just say that--I have been through the base 
closure process now four times--five times, actually, since I 
have been in Congress. And I have heard the Department of 
Defense, from the Secretary of Defense to others, testify what 
cost savings that we would achieve by consolidating and closing 
facilities. And more times than not, they have proven to be 
wrong, that we have not achieved the savings that the 
Department of Defense said that we would achieve.
    I, like I think all three of you and everyone, realize that 
consolidation needs to go forward where it makes sense; in 
other cases, where it is not cost effective, and we can 
continue to operate with some of the facilities that we have, 
we should do that.
    But my main concern here is, one, that whatever action is 
taken, that it is taken place collaboratively between all of 
the stakeholders involved, number one. And number two is that 
you come up with a metric that, in fact, measures the true cost 
to the taxpayers, what makes sense and what doesn't. And it is 
pretty obvious to me that consolidation is a priority in order 
to implement NextGen.
    The office was established in September of 2010, and we 
still do not have--with the input of all of the stakeholders--a 
plan in place where we can measure the cost of how we want to 
go forward. So I would just say that I would hope that the FAA, 
working with the stakeholders, can, in fact, begin to develop 
that plan and a plan that measures the true cost of 
consolidation and not duplicate what the Department of Defense 
did. And that is that they overestimated savings and 
underestimated cost.
    Thank you, Mr. Chairman.
    Mr. Petri. Thank you. And I would like to thank all the 
witnesses for being here today and your responses to the 
questions of the members of the committee.
    This hearing is adjourned.
    [Whereupon, at 11:25 a.m., the subcommittee was adjourned.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
